<html>
<title> - A TASK OF EPIC PROPORTIONS: RECLAIMING U.S. LEADERSHIP IN WEATHER MODELING AND PREDICTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                      A TASK OF EPIC PROPORTIONS:
                       RECLAIMING U.S. LEADERSHIP
                   IN WEATHER MODELING AND PREDICTION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2019

                               __________

                           Serial No. 116-57

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
38-332 PDF            WASHINGTON : 2020 
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  JAIME HERRERA BEUTLER, Washington
CHARLIE CRIST, Florida               FRANCIS ROONEY, Florida
SEAN CASTEN, Illinois                GREGORY F. MURPHY, North Carolina
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    FRANCIS ROONEY, Florida
DON BEYER, Virginia                  GREGORY F. MURPHY, North Carolina

                         C  O  N  T  E  N  T  S

                           November 20, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Sean Casten, Presiding Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Written statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10

Written statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10

                               Witnesses:

Dr. Neil Jacobs, Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, performing the duties 
  of Under Secretary of Commerce for Oceans and Atmosphere, 
  National Oceanic and Atmospheric Administration (NOAA)
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Cliff Mass, Professor of Atmospheric Sciences, University of 
  Washington
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. Peter P. Neilley, IBM Distinguished Engineer and Director of 
  Weather Forecasting Sciences and Technologies, The Weather 
  Company, An IBM Business
    Oral Statement...............................................    55
    Written Statement............................................    57

Dr. Thomas Auligne, Director of the Joint Center for Satellite 
  Data Assimilation, University Corporation for Atmospheric 
  Research (UCAR)
    Oral Statement...............................................    65
    Written Statement............................................    67

Discussion.......................................................    79

             Appendix I: Answers to Post-Hearing Questions

Dr. Neil Jacobs, Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, performing the duties 
  of Under Secretary of Commerce for Oceans and Atmosphere, 
  National Oceanic and Atmospheric Administration (NOAA).........    90

Dr. Cliff Mass, Professor of Atmospheric Sciences, University of 
  Washington.....................................................    96

Dr. Peter P. Neilley, IBM Distinguished Engineer and Director of 
  Weather Forecasting Sciences and Technologies, The Weather 
  Company, An IBM Business.......................................   101

Dr. Thomas Auligne, Director of the Joint Center for Satellite 
  Data Assimilation, University Corporation for Atmospheric 
  Research (UCAR)................................................   107

            Appendix II: Additional Material for the Record

Letter submitted by Representative Sean Casten, Presiding 
  Chairman, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   112


                      A TASK OF EPIC PROPORTIONS:

                       RECLAIMING U.S. LEADERSHIP

                   IN WEATHER MODELING AND PREDICTION

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2019

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 1:58 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Casten [presiding]. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. As some of you know, due to caucus votes at 3 p.m., 
I'm going to try to keep my introductory remarks brief, and ask 
to submit the rest for the record, in order to get witness 
testimonies in as quickly as possible. The Chairwoman and 
Ranking Member of the full Committee have also agreed to submit 
their statements for the record.
    As we have previously discussed in this Subcommittee. 
Americans depend on the data and services provided by the 
National Oceanic and Atmospheric Administration, or NOAA, and 
the National Weather Service every day. Earlier this Congress, 
in this Subcommittee's hearing on the NOAA Fiscal Year 2020 
proposed budget, we heard from Acting Administrator Dr. Jacobs 
that the U.S. is not currently the global leader in weather 
forecasting. Considering how important accurate weather 
forecasting is to all Americans, this is extremely concerning.
    The National Integrated Drought Information System 
Reauthorization Act, NIDIS,which was signed into law in January 
2019, directed NOAA to establish the Earth Prediction 
Innovation Center, or EPIC. EPIC is tasked with creating a 
collaborative, community-driven, global weather research 
modeling system. The system will be publicly accessible, 
allowing those outside of NOAA to access and contribute to a 
community developed model. At today's hearing I look forward to 
a discussion with our distinguished panel of experts about how 
EPIC will leverage the skills and expertise across the public, 
private, and academic sectors of the United States weather 
community to bolster modeling and forecasting. Since EPIC is 
still in its infancy, this hearing will provide a timely 
opportunity to discuss the future of its organization, 
management, and governance, and examine each sector's vision 
and short- and long-term goals for EPIC.
    I cannot overstate the importance of improving U.S. weather 
modeling and prediction capabilities. EPIC represents what some 
experts in the weather community have claimed as America's last 
chance to get this right, and restore our leadership in global 
weather prediction. I look forward to today's discussion about 
how EPIC is going to accomplish this. Thank you.
    The Chair now recognizes Ranking Member Marshall for an 
opening statement.
    Mr. Marshall. Thank you for holding this hearing. I want to 
thank our witnesses for appearing before the Subcommittee, 
especially Dr. Jacobs, who is in front of all of us now for the 
third time this year in Congress. And thanks for all of you on 
the panel for sharing your perspectives.
    Weather prediction is something that affects the 
constituents of every Member up here, from the fields of Kansas 
to the Outer Banks of North Carolina. Anticipating the strength 
and conditions of the next weather event can save lives and 
property, as well as be the difference between a profitable 
year for a farmer or a catastrophic loss. I'm proud to say the 
Science Committee acted decisively last Congress by passing the 
Weather Research and Forecasting Innovation Act, the Weather 
Act, and the National Integrated Drought Information System 
Reauthorization Act. The Weather Act was the first authorizing 
legislation to address weather forecasting in 25 years, and 
prioritized improving weather data, modeling, computing, and 
forecasting. I'd like to extend to my gratitude to Ranking 
Member Lucas for introducing what is now a law, and for his 
continued leadership on this issue.
    The NIDIS Reauthorization Act established the Earth 
Predication Innovation Center, EPIC, the topic of our hearing 
today. EPIC, when completed, will crowdsource the expertise of 
the private sector and the research communities to improve our 
forecasting models. This aligns with Congress' vision for the 
program by leveraging the weather enterprise to provide 
knowledge and skill on numerical weather prediction. The 
Federal Government should be doing more to utilize resources of 
private companies and university researchers, who are often the 
leading sources of innovations. In addition to having world 
class facilities and minds, private companies and academics are 
extremely flexible in research and development and cost 
effective in their methods. It is in the best interest of 
Kansas farmers, ranchers, emergency personnel, and everyday 
residents to have more accurate forecasts, and EPIC is an 
important step in the improvement of our forecasting ability.
    In 2012 Hurricane Sandy caused nearly $70 billion in damage 
as it made landfall in Cuba and the Northeast Coast of the 
United States. This was the catalyzing weather event which 
caused Congress to examine how we could improve weather 
forecasting. We don't know when the next superstorm will be, 
but it's my hope that, through EPIC, NOAA and the National 
Weather Service will be fully prepared to predict, respond, and 
recover from the next severe weather event. While NOAA has 
taken the initial steps to implement EPIC, we must see a 
stronger sense of urgency moving forward. Because it's designed 
as a community approach to weather prediction and modeling. I 
look forward to hearing how Dr. Mass and others have been 
involved in implementing the center, and getting their 
feedbacks on how to ensure a successful and timely completion.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Marshall follows:]

    Thank you for holding this hearing, Chairwoman Fletcher. I 
want to thank our witnesses for appearing before the 
subcommittee, especially Dr. Jacobs who is in front of the 
Committee for the third time this Congress, and all of you on 
the panel for sharing your perspectives.
    Weather prediction is something that affects the 
constituents of every Member up here. From the fields of Kansas 
to the Outer Banks of North Carolina, anticipating the strength 
and conditions of the next weather event can save lives and 
property.
    I'm proud to say the Science Committee acted decisively 
last Congress by passing the Weather Research and Forecasting 
Innovation Act (the Weather Act) and the National Integrated 
Drought Information System (NIDIS) Reauthorization Act.
    The Weather Act was the first authorizing legislation to 
address weather forecasting in 25 years and prioritized 
improving weather data, modeling, computing, and forecasting. 
I'd like to extend my gratitude to Ranking Member Lucas for 
introducing what is now a law and for his continued leadership 
on this issue.
    The NIDIS Reauthorization Act established the Earth 
Prediction Innovation Center (EPIC), the topic of our hearing 
today. EPIC, when completed, will crowdsource the expertise of 
the private sector and the research communities to improve our 
forecasting models. This aligns with Congress' vision for the 
program by leveraging the weather enterprise to provide 
knowledge and skill on numerical weather prediction.
    The Federal Government should be doing more to utilize the 
resources of private companies and university researchers, who 
are often the leading sources of innovations. In addition to 
having world-class facilities and minds, private companies and 
academics are extremely flexible in research development and 
cost-effective in their methods.
    It is in the best interest of Kansan farmers, ranchers, 
emergency personnel, and every day residents to have more 
accurate forecasts. And EPIC is an important step in the 
improvement of our forecasting ability.
    In 2012, Hurricane Sandy caused nearly $70 billion in 
damage as it made landfall in Cuba and the Northeast coast of 
the United States. This was the catalyzing weather event which 
caused Congress to examine how we could improve weather 
forecasting. We don't know when the next "superstorm" will be, 
but it is my hope that through EPIC, NOAA and the National 
Weather Service will be fully prepared to predict, respond, and 
recovery from the next severe weather event.
    While NOAA has taken the initial steps to implement EPIC, 
we must see a stronger sense of urgency moving forward. Because 
it is designed as a community approach to weather prediction 
and modeling, I look forward to hearing how Dr. Mass and others 
have been involved in implementing this center and getting 
their feedback on how to ensure a successful and timely 
completion.
    Thank you, Madam Chair. I yield back.

    Mr. Casten. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon, and welcome to the Subcommittee on 
Environment's hearing entitled "A Task of EPIC Proportions: 
Reclaiming U.S. Leadership in Weather Modeling and Prediction." 
I would like to thank all of our witnesses for being here today 
to discuss the current state and future of the Earth Prediction 
Innovation Center, or EPIC, and its role in improving U.S. 
weather forecasting capabilities.
    As we've previously discussed in this Subcommittee, 
Americans depend on the data and services provided by the 
National Oceanic and Atmospheric Administration (NOAA) and the 
National Weather Service every day. Much of these data are 
utilized in the weather products offered by private companies, 
such as weather apps on our cell phones or local news 
forecasts. Earlier this Congress, in this Subcommittee's 
hearing on the NOAA Fiscal Year 2020 Proposed Budget, we heard 
from Dr. Jacobs that the U.S. is not currently the global 
leader in weather forecasting. Considering how important 
weather forecasting is to all Americans, this is extremely 
concerning.
    A devastating display of this was in 2012, when the U.S. 
model failed to predict Hurricane Sandy's sharp left turn and 
landfall over the East Coast. The European model got it right, 
demonstrating to the nation that U.S. weather forecasting 
abilities were far behind those of Europe. As we've discussed 
in this Committee, severe storms like Sandy are increasing in 
frequency and intensity due to climate change, making accurate 
forecasts even more critical.
    A major difference between the U.S. and the European 
systems is that in Europe, the entire weather community 
contributes to a single model. In the U.S., the public, 
private, and academic sectors operate in isolation from each 
other, each working on their own weather prediction research 
and contributing to their own models. Even within the federal 
government, multiple agencies work on their own models in an 
uncoordinated way, and resources and expertise are fragmented. 
As a result, the U.S. Air Force abandoned the U.S. global 
weather model in 2015, preferring the United Kingdom's Unified 
Model. It is of the utmost importance that the U.S. weather 
community immediately act to catch up with its European 
counterpart.
    Congress recognized the need to better leverage the skills 
and expertise across the public, private, and academic sectors 
of the U.S. weather community to create a single global model 
that is stronger than any of the individual models. The 
National Integrated Drought Information System Reauthorization 
Act, which was signed into law in January 2019, directed NOAA 
to establish the Earth Prediction Innovation Center, or EPIC. 
EPIC is tasked with creating a collaborative, community-driven 
global weather research modeling system. The system will be 
publicly accessible, allowing those outside of NOAA to access 
and contribute to a community-developed model.
    On top of improvements to global weather prediction, EPIC 
could also serve as a vehicle to improve other, specialized 
modeling systems, such as rainfall and flooding prediction. 
This has implications for places like my district, Texas's 7th 
Congressional District in Houston, that has been experiencing 
increasingly frequent and intense precipitation events in 
recent years. Leveraging the capabilities of the community to 
improve precipitation modeling could provide my constituents, 
and others who live in flood-prone areas, more precise 
information about the timing and intensity of forecasted 
rainfall, thus protecting lives and property. I know all of our 
constituents look to the Weather Service as the national 
authority in issuing life-saving forecasts, watches, and 
warnings. While EPIC is intended to leverage the expertise of 
the non-federal weather community, the provision of official 
watches, warnings, and forecasts should remain with the 
National Weather Service.
    At today's hearing, I look forward to a discussion with our 
distinguished panel of experts from across the U.S. weather 
community about how EPIC will combine each sector's expertise 
to bolster U.S. modeling. Since EPIC is still in its infancy, 
this hearing will provide a timely opportunity to discuss the 
future of its organization, management, and governance and 
examine each sector's vision and short and long-term goals for 
EPIC.
    I cannot overstate the importance of improving U.S. 
modeling and prediction capabilities. EPIC represents what some 
experts in the weather community have called America's last 
chance to get this right and reclaim our leadership in global 
weather prediction. I look forward to today's discussion about 
how EPIC is going to accomplish this.
    Thank you.

    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chair Fletcher.
    We have had many discussions this Congress, and Congresses 
in the past, about the importance of accurate and timely 
weather forecasts.
    Weather forecasting is complex and relies on first 
collecting as many observations and data as possible that are 
then assimilated into cutting edge weather models that are 
tested and verified. NOAA, the lead civilian agency for 
operational weather forecasting, participates in all aspects of 
this process, including the development of our weather models. 
Despite being at the forefront of the development of numerical 
weather prediction, the accuracy of U.S. forecasts and 
numerical weather prediction has fallen behind that of other 
countries. But this isn't just a matter of pride; accurate 
weather forecasts save lives and protect property.
    We recently had a devastating tornado touch down in Dallas 
that ripped through densely populated areas of the Metroplex in 
and near my district. Fortunately, there were no deaths or 
severe injuries related to this outbreak, but the tornadoes did 
cause an estimated $2 billion in property damage.
    Timely forecasts, watches, and warnings from the National 
Weather Service were instrumental to keeping Texans safe during 
this tornado outbreak. Thank you to Dr. Jacobs and the 
dedicated employees at NOAA and the National Weather Service 
for their great work in protecting Americans every day.
    As Texans, Chair Fletcher and I are very familiar with 
extreme weather events, as are Ranking Members Lucas and 
Marshall. This Committee held a hearing earlier this year on 
how to improve the understanding and forecasting of extreme 
weather events in a changing climate. Many of the witnesses at 
that hearing shared that leveraging the capabilities and 
resources of our robust weather enterprise through a community 
approach would be critical to addressing extreme weather 
forecasting challenges. NOAA's Earth Prediction Innovation 
Center, or EPIC, has thepotential to support the goal of 
regaining U.S. leadership in global weather forecasting through 
a community driven approach.
    The Weather Research and Forecasting and Innovation Act of 
2017 was a significant step toward improving weather 
forecasting. This was followed by the National Integrated 
Drought Information System, or NIDIS Reauthorization Act of 
2018 that amended the Weather Act and authorized EPIC at NOAA.
    It is vital for Congress to conduct oversight of federal 
programs that we have authorized to ensure they are being 
implemented as Congress intended. Hearings like this are 
important if we are to be good stewards of taxpayer dollars. I 
am looking forward to hearing from a broad group of 
stakeholders from the weather community this afternoon on how 
we can leverage a program like EPIC to achieve a common goal of 
improving our weather forecasts to better protect our 
constituents.Thank you and I yield back.

    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Fletcher, for holding today's 
hearing. I've said before that the continued improvement of 
weather forecasting is one of the most important topics in this 
committee's jurisdiction. Accurate forecasting not only helps 
our businesses make strategic plans, but it helps us to protect 
lives and properties during severe weather events. We need an 
accurate and trustworthy system.
    The United States was once the world's leader in numerical 
weather prediction, but we can't credibly make that claim 
today. This was apparent in 2012, when American forecasts 
predicted Hurricane Sandy would weaken over the Atlantic, while 
the European forecast model correctly saw Sandy making 
landfall.
    Congress saw the need for rapid improvement in U.S. weather 
forecasts. In the supplemental appropriations package passed in 
response to Sandy in early 2013, Congress provided more than 
$20 million to NOAA to help improve forecast modeling and 
computing resource needs. While this assistance resulted in 
some improvements to our forecasting abilities, we needed to do 
more.
    This committee passed the Weather Act during the 115th 
Congress, which was signed into law in April 2017. The Weather 
Act, the most significant weather legislation passed by 
Congress in more than 25 years, provided authorities and 
direction for NOAA in its weather research and forecasting 
efforts. One of the most consequential provisions in the bill 
was direction for NOAA to begin purchasing more commercial data 
in creating forecasts. This came in response to a recognized 
need for NOAA to better utilize the knowledge and expertise of 
the private sector and the research community.
    An extension of the Weather Act was signed into law earlier 
this year. Included in this legislation was an authorization of 
the Earth Prediction Innovation Center - known as EPIC. This 
center represents a new way of weather modeling for NOAA by 
utilizing the computing resources and expertise of the academic 
community, private enterprise, and others who want to help the 
U.S. regain leadership. It will also utilize new computing 
resources, a significant reason why the U.S. has lagged in its 
forecasting abilities.
    The authorizing legislation for EPIC became law in January. 
While NOAA has taken initial steps to implement EPIC, progress 
has been slow. We must move forward quickly to implement this 
legislation and begin closing the gap with the Europeans, 
Canadians, and others who have surpassed us. Our panel of 
witnesses will help us identify potential bottlenecks in 
implementing EPIC and what we can do to help the process move 
forward quickly.
    Dr. Neil Jacobs is no stranger to our committee, and I want 
to thank him for again appearing before us today. He has made 
the quick and effective implementation of EPIC a personal 
priority. His education and professional background will be 
invaluable as we continue to improve the accuracy of our 
weather forecasts and I look forward to working with him on 
this effort.
    I again want to thank Chairwoman Fletcher for conducting 
today's hearing and I also want to thank Chairwoman Johnson for 
her shared commitment to helping the U.S. again be the world 
leader in weather forecasting.
    Thank you and I yield back.

    Mr. Casten. At this time I would like to introduce our 
witnesses.
    Our first witness is Dr. Neil Jacobs. He is the Assistant 
Secretary of Commerce for Environmental Observation and 
Prediction, performing the duties of Under Secretary of 
Commerce for Oceans and Atmosphere. Prior to joining NOAA, Dr. 
Jacobs was the Chief Atmospheric Scientist at Panasonic 
Avionics Corporation. He was also the Chair of the American 
Meteorological Society's Forecast Improvement Group, and served 
on the World Meteorological Organization's aircraft-based 
observing team. Dr. Jacobs has a master's and doctoral Degree 
in atmospheric science from North Carolina State University.
    Our second witness, Dr. Cliff Mass, is a Professor of 
Atmospheric Sciences at the University of Washington. His 
specialty is numerical weather and climate prediction, and the 
meteorology of the western United States. Previously Dr. Mass 
was a faculty member at the University of Maryland's 
Meteorology Department. Dr. Mass is a Fellow of the American 
Meteorological Society, a member of the Washington State 
Academy of Sciences, and has published over 120 papers. Dr. 
Mass received his Ph.D. in atmospheric sciences from the 
University of Washington. Welcome.
    Our third witness, Dr. Peter Neilley, is an IBM 
Distinguished Engineer, and Director of Weather Forecasting 
Sciences and Technologies for The Weather Company. He 
specializes in developing state-of-the-science technologies in 
weather forecasting for public use and weather-dependent 
markets. Dr. Neilley worked as a scientist at the National 
Center for Atmospheric Research, and the Chief Scientist at 
Weather Services International Corporation. Dr. Neilley 
recently served on NOAA's Science Advisory Board's 
Environmental Information Services Working Group. He was a 
longtime member and Chair of the American Meteorological 
Society's Committee on Weather and Forecasting. Dr. Neilley 
holds a master's degree and a Ph.D. in meteorology from MIT. 
Welcome.
    Our final witness, Dr. Thomas Auligne, thank you, is the 
Director of the Joint Center for Satellite Data Assimilation, a 
research center based on a multi-agency partnership between 
NOAA, NASA (National Aeronautics and Space Administration), the 
U.S. Navy, and Air Force. He is responsible for the mission to 
accelerate and improve the quantitative use of satellite data 
in weather, ocean, climate, and environmental analysis and 
prediction systems. Dr. Auligne has held research positions at 
the National Center for Atmospheric Research, the European 
Center for Medium-Range Weather Forecasting, and Meteo-France. 
Dr. Auligne earned a master's in meteorology and a Ph.D. in 
atmospheric physics in France.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you all have 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel. We will 
start with Dr. Jacobs.

                  TESTIMONY OF DR. NEIL JACOBS,

              ASSISTANT SECRETARY OF COMMERCE FOR

           ENVIRONMENTAL OBSERVATION AND PREDICTION,

          PERFORMING THE DUTIES OF UNDER SECRETARY OF

            COMMERCE FOR OCEANS AND ATMOSPHERE, NOAA

    Dr. Jacobs. Good afternoon, Chairman Casten, Ranking Member 
Marshall, and Ranking Member Lucas. Thank you for the 
opportunity to testify at this hearing. NOAA is entrusted with 
the responsibility to provide environmental information and 
prediction to the public to enable informed decisions on a 
range of phenomenon spanning a broad spectrum of temporal and 
spatial scales. Part of NOAA's core mission is to protect lives 
and property, and to safeguard the national economy. With such 
an important task, it is imperative that NOAA provide accurate 
and timely weather information. We strive to produce the best 
weather forecast in the world, underpinned by cutting edge 
research, collaborative external partnerships, and thousands of 
dedicated scientists.
    Following Hurricane Sandy, Congress provided supplemental 
funding for NOAA to take the first large step toward increasing 
computing capacity and improving its global forecast models. 
The desire to improve NOAA's weather mission culminated in 
congressional interest, and the passage of the Weather Research 
and Forecasting Innovation Act of 2017. This groundbreaking 
legislation contains a number of important directives for NOAA, 
including focusing transitioning research to operations, sub-
seasonal and seasonal weather forecast improvement, and 
satellite data innovation. Since coming to NOAA, implementing 
the Weather Act has been my top priority.
    One section in the Weather Act I would like to draw 
attention to is the mandate to make NOAA's numerical weather 
prediction code publicly available. While NOAA complied with 
this directive in spirit, it has been unable to fully implement 
it. The existing version of the code is unique to NOAA 
computers. This means that, while the public would have access 
to the code, without access to NOAA's internal computers, they 
would not be able to actually run the model.
    To solve this problem, NOAA needs a strategy to allow for 
greater accessibility by the public. To achieve this NOAA, will 
need to port its weather model code to commercial cloud, where 
it can be hosted by one or more providers. Making NOAA's model 
code available to the public will allow external world class 
scientists and researchers the opportunity to collaborate on 
new improvements, and this is a new way of thinking. Instead of 
keeping research and development inside of NOAA, the entire 
weather enterprise will be able to work with us to improve our 
modeling system, thereby accelerating advancements to our 
mission of protecting life and property. This strategy is the 
core principle of NOAA's new Earth Prediction Innovation 
Center.
    Building on the tenets of the Weather Act, and recently 
authorized in the National Integrated Drought Information 
System Reauthorization Act of 2018, EPIC will serve as the core 
research to operations to research hub for building and 
maintaining a community modeling framework. EPIC's innovative 
structure will link scientists and software engineers in 
academia, the private sector, and partner agencies with 
research, development, and operational activities inside the 
agency. Doing so will help accelerate model improvements, 
enhancing NOAA's ability to provide accurate warnings of 
weather-based threats, and helping to re-establish the U.S. 
preeminence in numerical weather prediction.
    Once integrated into the infrastructure of NOAA, EPIC will 
be used with the Unified Forecast System to improve the 
forecast skill of NOAA and other modeling initiatives, such as 
climate and ocean models. EPIC's public accessibility through 
highly scalable commercial cloud-based HPC (high-performance 
computing) architecture will enable external research partners 
to develop, test, and provide feedback on the American modeling 
system. Structured as a virtual center, EPIC will also manage 
model evaluation, source code, and user training. Where 
appropriate, NOAA will look to partner with other Federal 
agencies and academia to further this initiative.
    The President's Fiscal Year 2020 budget proposed $15 
million for EPIC. NOAA recognizes that importance of the EPIC 
program and has already started implementing several steps to 
plan for its future. Last month NOAA held an industry day to 
engage outside collaborators, ranging from universities to 
cloud vendors. NOAA has also issued a request for information 
on governance structure of the program itself, and has 
conducted extensive market research with external stakeholders. 
With adequate funding, NOAA looks forward to issuing a request 
for proposals, and moving forward with this critical program.
    Chairman Casten, Ranking Member Marshall, Ranking Member 
Lucas, and Members of the Subcommittee, thank you again for 
inviting me to participate today, and I would be pleased to 
answer any questions you may have.
    [The prepared statement of Dr. Jacobs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Casten. Thank you. Dr. Mass, you're recognized.

                 TESTIMONY OF DR. CLIFFORD MASS,

               PROFESSOR OF ATMOSPHERIC SCIENCES,

                    UNIVERSITY OF WASHINGTON

    Dr. Mass. Thank you. Good afternoon, Chairman Casten, 
Ranking Member Marshall, Members of the Subcommittee. My name 
is Cliff Mass, and I am a Professor of Atmospheric Sciences at 
the University of Washington. The U.S. is behind in numerical 
weather prediction, and we are not catching up. NOAA's global 
model is either third or fourth in skill, behind the European 
Center, the U.K. Met Office, and often the Canadian model. The 
U.S. has the leading weather research community in the world, 
and our Nation invests heavily in weather prediction. We should 
be far ahead, consistent with the state of the science, but we 
are not, and our global model is not the only problem. U.S. 
weather prediction trails in other crucial aspects, including 
high-resolution ensembles, and model post-processing.
    In 2012 the Nation became aware of the problem during 
Hurricane Sandy, and Congress responded with additional funds. 
Seven years later objective numbers show that we are not 
catching up, and the cost to the American people of the 
stagnation is huge. State of the science forecasting will save 
lives, greatly aid the U.S. economy, and serve as the first 
line of defense for severe weather. So why is the U.S. failing 
in this crucial arena? The causes are duplication of effort, 
poor organization, and lack of leadership, plus insufficient 
computer resources.
    The enormous weather research resources of the United 
States are spread over too many modeling systems. NOAA has 
three groups working on such models, the Environmental Modeling 
Center, and NOAA's ESRL (Earth System Research Laboratory) and 
GFDL (Geophysical Fluid Dynamics Laboratory) labs. NASA and the 
Navy have both developed both global and regional models. The 
Air Force has acquired a foreign modeling system, and the 
National Center for Atmospheric Research, which encompasses the 
academic community, has developed another global modeling 
system, in addition to the well-known WRF (Weather Research and 
Forecasting) model.
    The U.S. research community has mainly worked with NCAR's 
(National Center for Atmospheric Research's) weather models, 
and NOAA has used its own. They are not generally working 
together, and thus NOAA has been cut off from the innovations 
and energy of the U.S. academic community. Such a division of 
effort has undermined U.S. weather prediction, resulting in a 
large number of subcritical, inferior efforts. But there's 
more. NOAA has been starved for computer resources, crippling 
research and testing, and blocking the operational application 
of promising approaches. My analysis, supported by colleagues 
at NOAA, is that the National Weather Service could effectively 
use 100 times its current computer allocation.
    All of these problems can be turned around quickly if our 
Nation reorganizes how we develop, test, and run numerical 
weather prediction models. And the key to it all is bringing 
resources and personnel together in one national effort. EPIC 
can be a big part of the solution. EPIC must become the center 
of U.S. model development and testing, and resources should be 
concentrated there. It must be a physical center located 
outside of NOAA, and serve all agencies and groups in the 
Nation.
    EPIC needs resources, independence, autonomy, stability, 
and, most importantly, responsibility to deliver the best 
modeling system in the world. It must be an exciting center of 
discovery, science, and technology that will attract the best 
scientists, and our best students. EPIC needs sufficient 
computer resources for development and testing. It must entrain 
the efforts and capabilities of the U.S. research community, 
most importantly that of the National Center for Atmospheric 
Research. Finally, EPIC must develop and support a national 
community model that is freely available to the Nation. EPIC 
can easily fail if it is not given primary responsibility and 
resources to create the best weather prediction system in the 
world. It will fail if its goals are too narrow, or designated 
to serve a single agency.
    Our nation was the first in numerical weather prediction, 
but we threw away leadership by dividing our efforts. It is 
time, through EPIC, to combine the national resources, and 
rationalize how we develop forecast models with extraordinary 
benefits to the American people. Thank you very much.
    [The prepared statement of Dr. Mass follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Casten. Dr. Neilley, you are recognized for 5 minutes.

               TESTIMONY OF DR. PETER P. NEILLEY,

           IBM DISTINGUISHED ENGINEER AND DIRECTOR OF

         WEATHER FORECASTING SCIENCES AND TECHNOLOGIES,

              THE WEATHER COMPANY, AN IBM BUSINESS

    Dr. Neilley. Thank you, Chairman Casten, and Ranking Member 
Marshall, and Ranking Member Lucas, and all Members of the 
Subcommittee, thank you for the opportunity to address the 
Subcommittee today. My name's Peter Neilley, and I am the 
Director of Weather Forecasting Sciences and Technologies at 
the Weather Company, part of IBM. I oversee a team of 
scientists and engineers that develop a broad suite of 
technologies that are used to create and distribute weather 
forecast products and services for both the U.S. and the rest 
of the world. The U.S. is fortunate to have the most vibrant 
weather enterprise anywhere in the world, with deep 
partnerships between Federal, academic, and private sectors 
creating the delivery services for the Nation. The Weather 
Company and IBM are proud to be active contributing members to 
that weather enterprise.
    Numerical weather prediction, or NWP, is the foundational 
technology used to create nearly all weather forecasts today. 
At The Weather Company we employ many of our own numerical 
weather prediction models, but are also heavily dependent on 
the forecasts from numerical weather prediction models by NOAA 
and others. Because of that dependency, The Weather Company has 
deep interest in the quality of numerical weather prediction 
forecasts produced by NOAA. Accordingly, I actively participate 
in numerous advisory boards, committees that discuss and make 
recommendations on means of improving numerical weather 
prediction capabilities for the Nation, including the Earth 
Prediction Innovation Center. The community workshop for the 
Earth Prediction Innovation Center held this past summer 
gathered nearly 300 stakeholders from inside and outside of the 
Federal Government to inform NOAA and the community on early 
ideas for implementing EPIC, and a summary report of those 
findings, I believe, was released just yesterday by NOAA.
    The U.S. has a rich history in developing and operating 
numerical weather prediction systems that date back to the 
1950s. Today numerical weather prediction capabilities are 
developed and deployed in numerous places, including NOAA, the 
Department of Defense, the Department of Energy, NASA, at 
National Science Foundation-funded institutions, academic 
organizations, and the private sector. Each corner of this 
numerical weather prediction community has created modeling 
capabilities tailored to the mission of each one of those 
individual institutions. Unfortunately, there is no overarching 
national strategy guiding the organization interaction of these 
activities, which has led to less than optimum efficacy in any 
one of them.
    Further, there is no obvious existing place within the 
enterprise where such a strategy might be formulated and 
executed. As a result, there is a very broad set of NWP 
capabilities across the Nation. Some of them good, but few of 
them as good as they could be. In fact, when compared to models 
developed by international counterparts in Europe and the U.K., 
our global numerical weather prediction systems from NOAA and 
other members of our national enterprise are materially less 
accurate, and have been for decades. As a result, our Nation is 
significantly less prepared, and less resilient to the adverse 
impacts of weather and climate than we could be.
    Today I wish to convey four key points to the Subcommittee. 
First, under the leadership of Acting Administrator Jacobs, and 
his vision for EPIC, we have before us a generational 
opportunity to address the shortcomings of our Nation's NWP 
capabilities, and elevate them to the world's best.
    Second, EPIC, as proposed by Dr. Jacobs, envisions the 
creation of a state-of-the-science institution for the 
community, and by the community, where the numerical weather 
enterprise collaboratively works together using a common 
framework of tools and technologies. This would enable the most 
effective, and efficient, development of advanced numerical 
weather prediction capabilities in support of both NOAA, and 
all the other numerical weather prediction stakeholders across 
the Nation.
    Third, to execute this vision, NOAA must construct EPIC as 
a semi-autonomous and externally managed national institution 
that will establish, catalyze, organize, and manage a large and 
diverse scientific and technical community collaboratively 
working toward the betterment of NWP. NOAA would be a major 
constituent in the EPIC community, participating in both its 
government and scientific endeavors, but would only be one of 
the many stakeholders drawing value from its accomplishments.
    Finally, in order to achieve this vision, numerical weather 
prediction stakeholders across the Federal Government must 
embrace and actively participate in EPIC. As outlined in my 
written testimony, I think Congress plays an important role in 
fostering and incentivizing such participation, as well as 
helping to ensure the long-term success of EPIC. Thank you for 
the opportunity to address the Subcommittee today, and I also 
look forward to your questions.
    [The prepared statement of Dr. Neilley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Casten. Dr. Auligne, you are recognized for 5 minutes.

                TESTIMONY OF DR. THOMAS AULIGNE,

        DIRECTOR OF THE JOINT CENTER FOR SATELLITE DATA

 ASSIMILATION, UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH 
                             (UCAR)

    Dr. Auligne. Good afternoon, Chairman Casten, Ranking 
Member Marshall, Ranking Member Lucas, and Members of the 
Subcommittee. Thank you for the opportunity to testify today. I 
am Dr. Thomas Auligne, Director of the Joint Center for 
Satellite Data Assimilation at the University Corporation for 
Atmospheric Research. As a trained meteorologist, I care deeply 
about improving the quality of our weather models, which help 
build a weather-ready nation, and save lives and property. My 
experience in academia and operational centers gives me a 
unique perspective on the so-called valley of death separating 
research and operations.
    For more than 30 years, weather prediction in the United 
States has been trailing behind other international centers, 
most notably the European Center. Previous actions and 
additional funding have failed in regaining U.S. leadership. 
This leads me to propose a disruptive vision for EPIC, 
reconsidering organizational roles, governance, and funding 
models. My view is that only with radical change is it 
realistic to expect radical improvement.
    Drawing from my previous experience at the European Center, 
I have concluded that the secret sauce fueling their success 
story has the following ingredients: Focus, innovation, 
excellence, and accountability. While the U.S. weather 
enterprise is often described as the uncoordinated giant, 
plagued by fragmentation of resources, the Europeans rally 
behind the strength of a common goal. The success of EPIC lies 
in a clear, non-overlapping mission, with clear responsibility 
and accountability.
    EPIC should launch a focused effort with one goal, develop 
the best weather prediction system for the Nation. Success 
should be directly measured, and EPIC's director should be held 
accountable. We need a center of excellence, attracting the 
best talents that can drive the Center's goals, guide the 
community, and work toward operational requirements. This dream 
team will be supported by lean decisionmaking, efficiency-
driven operations, and strategic allocations of resources. On 
this aspect, we need massive investment in high-performance 
computing, leveraging the elasticity of the cloud.
    EPIC should provide a collaborative environment, where 
scientists from the government, academia, and the private 
sector can gather to conduct innovative code development, and 
explore high-risk, high-reward research. This requires building 
a research model accessible by the entire community, and paired 
with an effective process to transfer research to operations.
    As EPIC focuses on encouraging and incorporating innovative 
science, it should also utilize an innovative business model. I 
am convinced that EPIC can draw from the success of the Joint 
Center for Satellite Data Assimilation. Its distributed 
structure, following a hub and spokes approach, increases the 
government's ability to engage world class scientists and 
engineers. Its agile team, at the intersection of multiple 
Federal agencies, is reinventing collaboration, and exploring 
innovative pathways. In fact, the Joint Center is already 
applying the European secret sauce to better assimilate 
observations to initialize model forecasts. This major science 
problem is the highest priority for EPIC.
    I dream of EPIC as an agile center, where scientists can 
focus on science, red tape is reduced to a minimum, 
decisionmaking is streamlined, and community collaboration is 
entirely result-driven. The implementation of EPIC should be 
delegated to a single trusted partner that has strong 
connections to the community and the government, building a 
bridge across the valley of death.
    In conclusion, EPIC represents a unique opportunity. We 
have one shot to get it right, and business as usual is not an 
option. We need to reinvent the way we transition weather 
research to operations. The breadth and depth of the U.S. 
research community is second to none. EPIC can use is ingenuity 
to reach, and even surpass, forecast improvement goals, and 
collectively reclaim American leadership in weather modeling 
and prediction.
    Thank you for your attention. I look forward to answering 
any question you have.
    [The prepared statement of Dr. Auligne follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Casten. Thank you. At this point we will begin our 
first round of questions. The Chair will recognize himself for 
5 minutes.
    I want to start by thanking you, Dr. Jacobs, for a really 
productive meeting we had in my office last week on NOAA, and 
the future of weather forecasting, the role of science, the 
Enlightenment. We had a wide-ranging conversation, I appreciate 
it. And I really just want to emphasize again how much I 
appreciate you taking the time, as we discuss in greater depth 
today the EPIC program, and the future of U.S. weather 
modeling. And I also want to make sure that we keep in mind the 
great work of the National Weather Service forecasters, and 
their efforts to ensure that communities receive timely and 
accurate forecasts of major weather events 24/7/365.
    To that end, Dr. Jacobs, I will again echo my concerns 
about NOAA's FY20 budget request to eliminate 110 full-time 
equivalents, and I just want to reiterate the ask I made in our 
meeting, and my subsequent letter, which I will use my power as 
Chair, with unanimous consent, to enter into the record. I just 
would ask that you follow up with the Committee on the issues 
raised in that letter. Thank you.
    Dr. Jacobs, in your testimony you discussed how, once 
integrated into the infrastructure of NOAA, that EPIC will be 
used within the Unified Forecast System to improve the forecast 
skill of NOAA's other modeling initiatives, including climate 
and ocean models, which, as a scientist myself, I geek out on 
how that would all work, and the idea of actually having a 
model that can both research and model many types of events, 
hydrological changes, sea level rise, fisheries, and harmful 
red tide. Can you help us understand, what is your timeline 
under which EPIC can improve these other economically and 
ecologically important forecasts, and especially with tying in 
near-term weather to crucial longer-term climate models?
    Dr. Jacobs. Sure. Thank you very much for the question. 
Very much appreciate the time we spent together, and appreciate 
your interest in NOAA and numerical weather prediction. The 
Unified Forecasting System is a way to sort of streamline our 
production suite. Inside of the National Center for 
Environmental Prediction, we run a lot of different models, 
from high-resolution short-range convection, to dynamic climate 
models, medium-range models, and then we have wave models, 
ocean models, hydrological, biological, ecological models. 
We're trying to get all of these in a unified system, and this 
sort of hinges on the NCAR/NOAA MOA (memorandum of agreement), 
where we were looking at a common code base, and a common 
infrastructure. The Finite Volume Cubed Sphere, FV3, dynamic 
core was actually written as a dynamic climate model, but we 
realized we could actually use it at high resolutions as a 
weather model. What's appealing to me here is when we can unify 
a lot of the code architecture, then we eliminate a lot of 
these redundant kind of parallel development programs, and have 
the same amount of people all focused on a unified forecasting 
system.
    The timeline is essentially--we really wanted to focus on 
the global model first because the global model provides the 
boundary conditions for all of the other models. In other 
words, if you're interested in looking at a forecast for 
harmful algal bloom, we have biological models for that, but 
those models depend on a hydrological model, which models how 
there's runoff, and, of course, that depends on the weather 
model, which forecasts precipitation. So the first sort of 
foundation of this is implementing the global model, and then 
all of the other models that use that for initialization will 
then be implemented.
    Mr. Casten. And, I'm sorry, just because I'm tight on time, 
and I want to get one more question in, any ballpark on 
schedule, or is it too soon to say?
    Dr. Jacobs. Well, we're already pretty far down the road in 
developing the Unified Forecast System. We're expecting--we've 
been--we've actually just had a public release of the 
seasonal--the sub-seasonal version of the code. It's on GitHub 
now, but it's supported yet for the community, so we're really 
trying to work on the model support for that. These upgrades 
will be coming out on GitHub as I speak. We're hoping to get 
the RFP (request for proposals) for EPIC out early next year.
    Mr. Casten. OK. Dr. Mass, with the little time I have left, 
I want to raise with you a conversation I had with Dr. Jacobs, 
given your numerical modeling background. I sit on the AI 
(artificial intelligence) Task Force on Financial Services, and 
we have this continuing conversation around--in a world of 
machine learning and AI, there's this tradeoff between 
precision and accuracy and transparency of algorithms. As we 
build out more and more sophisticated weather models, given 
your background in modeling, do you see tradeoffs coming in the 
weather forecast model as we get more precision with machine 
learning, but potentially start to separate from the 
fundamentals in the models that we've relief on that have some 
level of physical understanding? And is there anything that we 
should be concerned about as a Committee if that break happens?
    Dr. Mass. I don't know if concern is the right word, but I 
think the marriage of AI with modeling is very powerful. AI 
is--and machine learning's very powerful for quality control, 
but just as importantly for post-processing and model output, 
so you need both. You need the dynamical models, but you need 
machine learning on both sides, so--together they're much more 
powerful.
    Mr. Casten. OK. And I see I am out of time, so I now 
recognize Ranking Member Marshall for 5 minutes, who we have 
missed--Mr. Lucas, you are recognized for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. I appreciate the 
opportunity, and, Dr. Jacobs, you've been before the panels 
enough times to know that occasionally we ask about the same 
thing, we just come at it from slightly different angles. And, 
with that in mind and in spirit, I'd like to note that I am 
concerned that NOAA may be approaching EPIC implementation as 
something of a software issue, or the agency views the biggest 
challenge to improving weather forecasting is simply improving 
existing software. What assurance can you give the Committee 
that NOAA's engaging the academic community and the private 
sector to ensure that this is truly a community-based weather 
prediction model?
    Dr. Jacobs. Well, the primary assurance I can give you is 
that it'll have to exist outside of NOAA, and having the 
involvement of industry and academia is essential. This will 
all be built into the request for proposals. We had a big 
meeting in August. We just released the report of that meeting 
yesterday, and we had a lot of stakeholders from all the 
sectors involved and contributing, so the whole point and 
design of this is to--is a stakeholder-run program, with an 
operational outcome that NOAA should benefit from.
    Mr. Lucas. And along that line, Doc, I'm a Member of a body 
where there seems to be an ever-increasing turnover, so when I 
ask this, I ask this in the politest of terms. What assurance 
can you give the Committee that EPIC will continue past your 
tenure at NOAA?
    Dr. Jacobs. Well, once the RFP--once----
    Mr. Lucas. And I'm not predicting the length of anyone's 
tenure. I'm just asking about continuality.
    Dr. Jacobs. No, this was a top priority for me, and making 
sure this lives past my tenure is extremely important, and 
that's another reason why having it, you know, externally 
managed would ensure that if it's inside of NOAA, then NOAA, 
you know, has complete and total direction. If it's external, 
even if--I mean, I expect that NOAA will have a seat at the 
table in guiding what it does, but largely driven by external 
stakeholders will ensure that, even if I'm not at NOAA anymore, 
it will still be successful.
    Mr. Lucas. And along that line, if you could expand a 
little bit on your current acquisition strategy, and the 
timeline that we're very concerned about here about 
implementing EPIC?
    Dr. Jacobs. So there's the RFP, which we expect to go out 
early next year, first month or two, and then an additional--so 
there's two sort of acquisition strategies we're concerned 
about. One of them is where does EPIC live? We'll learn that 
when the award goes out. Then there's the acquisition of cloud-
based compute resources. This is a little bit trickier. So we 
have a need to procure cloud-based resources, but right now, 
with the Federal acquisition regulations, it's very complicated 
for us to try to figure out how to buy cloud compute on a 
demand that fluctuates. It's not just like buying a rack of 
servers.
    Mr. Lucas. And as an elected official, I would be remiss if 
I didn't ask how universities, such as The University of 
Oklahoma, would have a chance to participate in EPIC?
    Dr. Jacobs. Well, my hope----
    Mr. Lucas. They're are homegrown questions, you know, 
wherever we come from.
    Dr. Jacobs. I, you know, so obviously their expertise is 
largely in convective weather forecasting, and there's a 
component of this that will deal with that weather forecasting. 
I would hope that they would be both contributing model 
improvements, as well as benefiting from some model 
improvements, as well as the Mesonet Program, and all of the 
different observing systems. We'll be able to test those in 
this open cloud-based architecture, which I think will benefit 
not just the forecasting, but the observation systems going 
into the models.
    Mr. Lucas. And one more time, touch on what you would 
define as the milestones that will reflect our progress toward 
closing the gap with the Europeans?
    Dr. Jacobs. So the first initial milestones of success 
would just be how many external stakeholders are using the 
code, so we would want to monitor how many downloads, what's 
the user interest? And after that we would, you know, we would 
hope that we would start to see contributions and improvements 
coming back, but the initial steps are just getting the 
external stakeholders engaged in the program.
    Mr. Lucas. And, Dr. Mass, you're not exempt from these kind 
of questions either. I ask this, and I think I know the answer, 
but I'm going to ask, does the broader weather research 
community support EPIC?
    Dr. Mass. I think the answer's clearly yes, but we want 
EPIC to be something that does serve the entire community. 
That's crucial.
    Mr. Lucas. Thank you, Doctor, and with that I yield back, 
Mr. Chairman.
    Mr. Crist [presiding]. Great. Thank you very much. Thank 
you to the witnesses for being here today. We all appreciate 
your attendance.
    The ability to forecast hurricane tracks has greatly 
improved since the 1960s. Forecasting hurricane intensity has 
also improved, but less so than the track forecasts. In fact, 
in 2017 Congressional Research Service reported on forecasting 
hurricanes and found that the biggest challenge facing the 
National Hurricane Center is how to improve the ability to 
predict hurricane intensity. Being able to better predict how 
strong a hurricane will become, as well as when and where it 
will peak in intensity, is key for the district I represent 
along the west coast of Florida, which, as you know, is 
incredibly vulnerable to hurricanes year in and year out.
    So, Dr. Jacobs, given how costly hurricanes are to the 
United States, and in particular to Florida, how will EPIC 
improve hurricane intensity prediction, if it will?
    Dr. Jacobs. My expectation is that it will. The focus 
primarily for hurricane intensity is largely centered around 
two things: Two-way coupled modeling, with an emphasis on sea 
surface temperature, because that's essentially the fuel; and 
the physics in the model. So there's a deficiency in the model 
physics that needs a lot of research and improvement. EPIC will 
essentially be the external sandbox where stakeholders can test 
their improvements to both the physics, as well as the two-way 
coupling of the models, and then, additionally, new 
observations, new observing systems.
    So there's a lot of new observing systems coming online, 
not necessarily NOAA assets, but industry assets, and even 
academic devices, that we don't have the internal bandwidth to 
test the impact of those obs in our system, but we can test the 
impact of those observing systems in the proposed EPIC sandbox.
    Mr. Crist. Great. Would any of the other witnesses care to 
comment on how EPIC will improve hurricane prediction? Dr. 
Neilley?
    Dr. Neilley. Thank you, Mr. Crist. I think one of the 
critical ways in which EPIC can improve hurricane forecasting 
is by marriage of the Unified Forecast System with next-
generation data assimilation techniques, particularly the types 
of technologies that are being developed in Dr. Auligne's 
group. There has been numerous scientific evidence that data 
assimilation, taking the observations that Acting Administrator 
Jacobs mentioned, and using them to initialize the model, can 
be one of the most important aspects of getting the hurricane 
forecast right. EPIC, if crafted correctly, is the cauldron in 
which entices all of these scientific capabilities to come 
together and be married to improve our weather forecasting 
capabilities.
    Mr. Crist. Great. Thank you very much. Any others? Yes.
    Dr. Auligne. Let me tag along to this response. So there's 
multiple evidence showing that, if we're looking at the quality 
of the forecasting, the skill of the initial conditions and the 
actual model are equally important, and data assimilation is 
handling the initial conditions for the model, so we're 
actually blending together observation and previous model 
forecasts to actually optimize these initial conditions, which 
due to the chaotic nature of the atmosphere, are propagating 
and amplifying in the forecasts, so it's actually a critical 
component of forecast accuracy.
    Mr. Crist. Great, thank you. I wanted to ask--I'm running 
out of time. I wanted to ask one additional question, if I 
might. In addition to weather forecasting, NOAA's also 
responsible for researching and modeling other types of 
environmental concerns, such as red tide and algae bloom, 
which, as you know, is of great interest in the Sunshine State. 
Dr. Jacobs, can you discuss how EPIC will help improve 
forecasting for red tide and other harmful algae blooms?
    Dr. Jacobs. So, as I was explaining earlier, a lot of these 
harmful algal bloom models depend on the atmospheric model 
forecast of precipitation and runoff to determine when there'll 
be triggers. Ultimately we are going to put in all of these 
secondary downstream models, so to speak, into the EPIC 
program. In conjunction with this, if we have an external 
repository for the modeling system, as well as the code that 
we're running on the cloud, we need to have an archive and 
repository for observations, and so building our observation 
system in the cloud is going to be essential both for 
initializing and verifying the models. And that's largely what 
NOAA's Big Data Project is focused on.
    Mr. Crist. Thank you very much, Dr. Jacobs. I would now 
like to recognize the Chair, Madam Fletcher.
    Chairwoman Fletcher. Thank you, Mr. Crist, for sitting in 
the Chair. I believe my first order of business will be to 
recognize Mr. Murphy for 5 minutes.
    Mr. Murphy. Thank you, Madam Chair. Thank you, gentlemen, 
for coming this afternoon. My area of expertise for the weather 
is looking up and seeing whether I need an umbrella or not, so 
thank you for giving me a heads up on that. Just one actually 
really kind of rudimentary question. Can someone just explain 
to me, in terms that I might understand, the difference between 
the European models and the American models? In other words, 
when I look at hurricanes, I live in eastern North Carolina, so 
we love to do the hurricane watch, and we see the American 
model is doing one thing, and then the European model is doing 
another thing. What's the fundamental difference between those 
two models?
    Dr. Jacobs. So I'm going to try to answer this real fast, 
and then hand it over to the rest of the panel, but the primary 
fundamental difference is how the European center does data 
assimilation, and that's basically how they generate the 
initial conditions in the model. They use a true what we call 
four dimensional variational data assimilation, and right now 
the NOAA modeling system uses a four dimensional ensemble 
variational assimilation, but it's not a--they don't truly vary 
time as the fourth dimension.
    Mr. Murphy. Is he being truthful?
    Dr. Auligne. Yes. So the principles--the fundamental 
equations are the same. The way that these models are 
implemented are quite different, like two car models can be 
quite different, although the principle of the car is the same. 
So, in terms of data assimilation, there's definitely a lot of 
emphasis in Europe on the algorithms, and the use of additional 
instruments, and more data, so that translates into actually 
additional forecast skills.
    Mr. Murphy. All right. Thank you. One other question. In 
medicine, we look forward to every new advancement, and what 
things are going to happen. But I will ask this question, and 
this is, you know, an honest, hard question. What is going to 
be our ROI (return on investment) on this? In other words, 
where are we now, stagnant now, and then if EPIC is fully 
instituted, how much more advanced do we truly, honestly, 
expect to be? In other words, what can we gain from this in 
implementing this system? Yes, sir, Dr. Mass?
    Dr. Mass. Well, there's no reason to think the European 
Center is as good as we can be. American research capabilities 
far exceed that of Europe as an aggregate, so our skill can be 
better than that. I think we could catch up within years if we 
just got the data assimilation right, and then, over a longer 
period of time, improve physics. I think we could be ahead of 
them in 3 to 4 years if we really put the energies into it.
    Mr. Murphy. All right. Just a follow-up question, because 
I'm a function over form kind of guy, when we have hurricanes 
coming toward the east coast, everybody acts the same. They buy 
their water, they get their bread. How is this going to make it 
any different? Again, I'm just looking, you know, I believe in 
research, I believe in the advancement of knowledge by all 
means, but how is it going to change the lives of the average 
American, say on the east coast, with hurricanes?
    Dr. Neilley. All people make decisions in all types of 
weather events, whether or not it's a hurricane, or a more 
mundane thunderstorm in the afternoon. Anytime you can make 
better decisions because you have better information, you're 
better off. There are estimates that the national economy is on 
the order of a trillion dollars dependent on weather, and by 
incrementally improving our weather forecast, if we can make 
that dependency down by, say, just 1 percent, that alone is a 
$10-billion payoff for our economy. I think that's the ROI that 
you asked for.
    Mr. Murphy. All right. Thank you. Chairwoman, I yield back 
my time.
    Chairwoman Fletcher. Thank you very much. I will now yield 
myself 5 minutes for questions, and I apologize for just 
arriving, as I believe my colleague Mr. Babin did. We were 
voting in another Committee. But I'm really glad to be here to 
see all of you, and I appreciated your written testimony. I'm 
sorry I missed your initial comments, but I do have a couple of 
questions that I think haven't been covered yet.
    It's clear, from the written testimony, the recommendations 
from the Environmental Information Services Working Group, that 
a strong, accountable, and vision-oriented leadership and 
management is needed to ensure EPIC's success. To my 
understanding, there isn't a clear plan for that leadership, or 
management, or governance at this point, and so I want to ask 
all of you, what are your thoughts about who should lead EPIC 
and how it should be structured? And, Dr. Jacobs, I'd like to 
start with you.
    Dr. Jacobs. So I'm going to answer this question at a very 
high level, because, really, the point of EPIC is to have it 
governed by the weather enterprising community, so I'd be 
interested to hear what the weather enterprising community had 
to say. The request for proposals is going to have some 
guardrails, but part of what we're going to be asking in the 
RFP is also proposal of a governance structure. You know, NOAA 
obviously has to be involved, but we want involvement from 
private sector and academia.
    And ultimately EPIC may end up, you know, it could be, you 
know, end up at a university, it could end up at UCAR 
(University Corporation for Atmospheric Research), it could end 
up in industry, it could end up in some kind of combination of 
all of the above. The only things that I really would like are 
that its' got to be external to NOAA, NOAA's got to have a seat 
at the table, it's got to have an operational outcome for NOAA 
forecasting products in mind, and, other than that, a lot of 
the governance is going to be part of the proposal of wherever 
it ends up.
    Chairwoman Fletcher. Thank you, Dr. Jacobs. Dr. Mass?
    Dr. Mass. Well, this is going to be a community modeling 
system, so the community needs to be there. There needs to be 
at least an advisory committee that's in place. There needs to 
be some kind of group that encompasses all the people that are 
putting money into it, so that'll be there. But there needs to 
be leadership. One person has to be responsible. There has to 
be a leader, a director of EPIC, somebody who's responsible, 
and if it doesn't work out, heads will roll, that person. So 
you need responsibility, one point of responsibility.
    Chairwoman Fletcher. Thank you. Dr. Neilley?
    Dr. Neilley. Thank you. I think the most critical 
characteristic of a successful EPIC is the breadth of the 
science and diversity of science that takes place in it. In 
order to achieve that, EPIC has to be crafted in a way that the 
scientific community is enticed to participate, and is not sort 
of mandated or directed to participate. It is the place to go 
to conduct numerical weather prediction science in the world, 
and, as such, it will create, therefore, the best numerical 
weather prediction science, and come back to benefit NOAA and 
others.
    Who should lead EPIC is the institution that is best able 
to create that enticing institution that scientists want to go 
to, and that's who should lead them.
    Chairwoman Fletcher. Thank you, Dr. Neilley. Dr. Auligne?
    Dr. Auligne. So I think that one of the main risks for EPIC 
is fragmentation. We want, first, to make sure we have a clear 
focus, and clear--as Dr. Mass was saying, clear accountability. 
We need to make sure we can define and measure success, and can 
have somebody accountable for it. Then we need to have these 
clear connections with the community, and clear connection with 
the government as well. So it can't be completely inside the 
government, because we're not trying to replace NOAA. We're not 
trying to replace the research and the R&D (research and 
development) in NOAA. We're trying to supplement, and really 
help the government with more agility, and more connection to 
the community. So that's basically what I think is required for 
the institution that would lead it.
    Chairwoman Fletcher. OK, thank you. And I want to follow 
up, Dr. Mass, on your comment about leadership, there needs to 
be clear leadership. Do you have ideas, or a vision, or a 
thought, of what that leadership should look like, not a 
specific person, obviously, but when we talk about what is the 
structure, and I'm going to circle back to Dr. Jacobs in a 
second, but what does that look like to you, or what should it 
look like, in terms of that leadership?
    Dr. Mass. Well, we can see that. We can see our 
competition, the European Center. They do have a leader, a 
scientific leader, that oversees the whole program. That's the 
responsible person. But they do have an advisory board that's 
there as well that represents all the various countries that 
are involved, and they have scientific advisory committees. So 
they give us somewhat of a pattern of what we could follow 
that's been highly successful.
    Chairwoman Fletcher. OK. Thank you. And, Dr. Jacobs, you 
mentioned in your testimony about the RFP, so I just wanted to 
get a follow up on that as well to know your thoughts about 
sort of a dedicated staff and leadership team, and if that is 
something planned, and if so, when it will be announced?
    Dr. Jacobs. So that's largely going to come out of the 
responses from the RFP, wherever the award goes, but, to Dr. 
Mass' point, I think we'll probably end up finding a--where we 
have some type of board, and then a single-point person who has 
autonomy, accountability, and control over the budget. Some of 
the things that I've seen have failed in the past were run by 
individuals who had complete autonomy, and no budget authority, 
so they couldn't actually execute great decisions.
    Chairwoman Fletcher. Thank you, that's helpful. I have 
managed to go over my time already, so I'm going to yield back, 
and I'm going to recognize Dr. Babin for 5 minutes. Thank you 
very much.
    Mr. Babin. Thank you, Madam Chair, appreciate it, and 
appreciate all of you expert witnesses for being here. Dr. 
Jacobs, as you know, the 36th District of Texas, over in the 
southeast portion, was hit especially hard by Hurricane Harvey 
in 2017. Additionally, Tropical Storm Imelda dumped a record 
amount of rainfall in my district just a few months ago, in 
September. This storm came out of nowhere, with a severity that 
surprised everyone, and left most of my constituents without 
time to prepare for it.
    Let's jump ahead, hypothetically, just a few years into the 
future, where EPIC has been successfully implemented, and is 
operating. Can you walk us through the processes of a fully 
functioning EPIC as the storm approaches, and how the days 
leading up to, and immediately following a storm like Harvey or 
Imelda, and how that would be different?
    Dr. Jacobs. Sure. Thank you very much for the question.
    Mr. Babin. Yes, sir.
    Dr. Jacobs. So the fully successful EPIC will happen, 
pardon the pun here, but way upstream from these precipitation 
events. So what would happen is--when you look at the National 
Water Center, which is a fantastic center, they've got the 
National Water Model, it's, you know, it's a very successful 
program, but if there is one weak link in the National Water 
Model, it's that we have to forecast properly where the rain's 
going to fall, otherwise we don't know where the runoff is 
going to go.
    And so having EPIC be the center where we actually feed in 
inputs to improve the forecast of prediction of rain will then 
subsequently improve the prediction in the hydrological models. 
So a lot of this will happen months to years in advance, but 
you will see the improvements of those actual forecasts find 
their way down into, you know, things like, you know, not just 
hydrological models, but also biological and ecological models 
as well.
    Mr. Babin. Sure. OK. And I also serve as the Ranking Member 
of the Space Subcommittee here, with the privilege of 
representing Johnson Space Center. I know the impacts that one 
government facility can have on an entire region. As it stands, 
EPIC will be a virtual center that will have tremendous 
benefits by operating in the cloud, both in terms of cost and 
innovation. Again, looking ahead to years down the road, when 
EPIC will be running smoothly, and surely will be the gold 
standard at that time, is there a scenario where a physical 
center, rather than a virtual center, could be beneficial to 
EPIC's mission?
    Dr. Jacobs. Absolutely. Thank you for allowing me to 
clarify this. I have often referred to EPIC as a virtual center 
because EPIC, when it's listed in the budget proposal, was--as 
$15 million, and I didn't want anyone in the budgeting process 
to think I was planning to actually build a brick and mortar 
center for only $15 million. So, when we put out the RFP, EPIC 
will have to live somewhere. There will have to be people in 
seats, at computers, in some type of facility, whether it's a 
university or other, you know, other facility, there will have 
to be a physical center. In addition to that, if we have the 
opportunity to expand this program, it's entirely probable that 
we, you know, we would need an additional physical center for 
this somewhere.
    Mr. Babin. Right. Yes, sir. Dr. Mass?
    Dr. Mass. Well, even if we're very successful creating the 
best weather prediction system in the world, we're still going 
to need the computers. So if we don't have vastly increased 
computer resources, we're not going to be able to deliver the 
forecasts that we really want to. That's really important.
    Mr. Babin. I understand. Thank you. Well said. You know, 
I'll yield back, Madam Chair. Thank you very much.
    Chairwoman Fletcher. Thank you, Mr. Babin, and thank you to 
all of our witnesses. I know we just rushed in, and 
unfortunately, we have to go back and vote in our other 
Committee. I'm sorry to say, but since we have all come and 
gone from the hearing, I really appreciate all of you coming 
in, testifying, sharing your thoughts. I think this is really 
exciting to see what's happening, and I'm grateful for all of 
you participating today.
    Before we bring the hearing to a close, I also want to 
mention that the record will remain open for 2 weeks for 
additional statements from Members, and any additional 
questions that the Committee Members may have for the 
witnesses. But, for now, the witnesses are excused, and the 
hearing is now adjourned.
    [Whereupon, at 2:57 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Neil Jacobs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Cliff Mass

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Peter P. Neilley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Thomas Auligne

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record




             Letter submitted by Representative Sean Casten
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


                                 <all>
</pre></body></html>
